Credit Card Pricing Agreement
FEATURING Visa® Platinum
INTEREST RATES AND INTEREST CHARGES

3.90% introductory APR for 6 months.
After that, your APR will be 9.99% - 18.00%, based on your creditworthiness

Annual Percentage Rate
(APR) for Purchases

and will vary with the market based on the Prime Rate.

3.90% introductory APR for 9 months.
After that, your APR will be 9.99% - 18.00%, based on your creditworthiness and
Balance Transfer APR:
APR for Cash Advances &
Balance Transfers

will vary with the market based on the Prime Rate.

3.90% introductory APR for 6 months.
After that, your APR will be 9.99% - 18.00%, based on your creditworthiness
Cash Advance APR:

and will vary with the market based on the Prime Rate .

Penalty APR and When It
Applies

18.00% - This APR may be applied to your account if:
 Your minimum monthly payment is more than 60 days late
 You are in default of any other terms of the Agreement
How long will the penalty APR apply? If your APR is increased for any of these
reasons, the penalty APR will apply until you make six consecutive minimum payments
when due.

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge
any interest on the portion of the purchases balance that you pay by the due date each
month.

Minimum Finance Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Federal Reserve Board

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Federal Reserve Board at
http://www.consumerfinance.gov/learnmore

FEES
Annual Fee

None

Transaction Fees
Cash Advance
Foreign Transaction

3% of the cash advance transaction (minimum $10.00)
Up to 1% of the US dollar amount of the foreign transaction

Penalty Fees Late
Payment Returned
Item Charge

Up to $25.00
$25.00 or the amount of the returned item, whichever is less

Other Fees
Pay by Phone

Up to $10.00

THINGS YOU SHOULD KNOW ABOUT THIS CREDIT CARD
How We Will Calculate Your Balance: W e use a method called "average daily balance" (including new purchases). We
reserve the right to amend the VISA© Credit Card Agreement as permitted by law. The above rates and fees are current
as of 11/09/2015.
REV. 5/16 pg. 1

Loss of Introductory APR: We may end your introductory APR and apply the penalty APR if you make a payment more
than 60 days late.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.
These Account Disclosures for the Visa Platinum Credit Card are part of and integrated with your Credit Card
Agreement and Disclosure with Arizona State Credit Union.

REV. 5/16 pg. 2

